                   AUDIT OF SBA’S FY 2000 FINANCIAL STATEMENTS

                                     MANAGEMENT LETTER

                                     AUDIT REPORT NO. 1-15

                                          AUGUST 15, 2001




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416

                                                                   AUDIT REPORT
                                                            Issue Date: August 15, 2001
                                                            Number: 1-15

To:           Joseph P. Loddo
              Chief Financial Officer

              Jane P. Butler
              Associate Administrator, Office of Financial Assistance

              Cory Whitehead
              Acting Assistant Administrator for Administration


From:         Robert G. Seabrooks
              Assistant Inspector General for Auditing

Subject:      Audit of SBA’s FY 2000 Financial Statements – Management Letter

        Pursuant to the Chief Financial Officer’s Act of 1990, attached is the Independent
Auditor’s Management Letter issued by Cotton & Company LLP. The letter identifies conditions
related to (1) subsidy models for budget estimates and financial statement re-estimates, (2)
personal property and equipment, (3) expired appropriations, (4) foreclosed property records and
valuation, and (5) loan accounting records and servicing. The conditions were identified during
the audit of SBA’s Fiscal Year 2000 financial statements, but were not required to be included in
the Auditor’s Report. Also attached is your response to the draft report, in which you generally
agreed with the findings and recommendations.

       The findings in this report are based on the auditors’ conclusions, and the report
recommendations are subject to review, management decision, and action by your office in
accordance with existing Agency procedures for audit follow-up and resolution. Please
provide your management decisions for the recommendations within 30 days using the attached
SBA Forms 1824, Recommendation Action Sheet.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7204.

Attachment
                                          February 28, 2001


                            MANAGEMENT LETTER COMMENTS
                         INDEPENDENT AUDIT OF FISCAL YEAR 2000
                            PRINCIPAL FINANCIAL STATEMENTS


Inspector General
U.S. Small Business Administration


          We have audited the U.S. Small Business Administration’s (SBA) principal financial
statements as of September 30, 2000, and for the year then ended, and have issued our reports,
dated February 28, 2001, to SBA under separate cover. These documents included our reports on
SBA’s internal control structure and compliance with laws and regulations.

         The purpose of this management letter is to communicate five nonreportable findings to SBA
management.

           This letter is intended solely for the information and use of SBA management.

          We would like to express our appreciation to the SBA representatives who assisted us in
completing our audit. They were always courteous, helpful, and professional.

                                                                  Very truly yours,

                                                                  COTTON & COMPANY LLP




703/836-6701 • FAX 703/836-0941 • HTTP://WWW.COTTONCPA.COM • E-MAIL: DCOTTON@COTTONCPA.COM
                          INDEPENDENT AUDIT OF FISCAL YEAR 2000
                             PRINCIPAL FINANCIAL STATEMENTS
                            U.S. SMALL BUSINESS ADMINISTRATION
                                  NONREPORTABLE FINDINGS

         Certain nonreportable findings came to our attention during the audit of the U.S. Small Business
Administration’s (SBA) Fiscal Year (FY) 2000 principal financial statements, and they are discussed in
this report. Finding 1 was also reported in our FY 1999 management letter, and Finding 2 expands on a
finding related to computer equipment that was also reported in the FY 1999 management letter. All
findings are related to SBA’s internal control.

1.      Subsidy Models for Budget Estimates and Financial Statement Re-Estimates

        SBA’s quality control process over subsidy models used for budget estimates and financial
statement re-estimates, as required under credit reform, while much improved, is not completely
effective. In response to our FY 1999 management letter, SBA developed comprehensive policies and
procedures for preparing subsidy estimates and re-estimates. SBA also improved its quality assurance
process to include peer review by an analyst not responsible for preparing the re-estimate as well as a
supervisory review.

        Even with these improvements, errors continued. Complete and thorough documentation had not
been fully developed, and the quality control process was not fully effective. In our review of the cash
flow models for SBA’s business loan program, disaster loan program, and the Certified Development
Company (CDC) loan program, we found several formula errors and numerous incorrect cell references.
As a result of these findings, SBA was required to recalculate its re-estimates for each of the three
programs.
        To ensure that these types of errors do not continue, we recommend that the Chief Financial
Officer (CFO) request the Director of the Office of Financial Analysis to:


        •       Complete development, implementation, and documentation of review procedures over
                the credit reform cash flow worksheets and update the documentation annually.

        •       Develop a checklist to guide both preparer and reviewer through all steps of the subsidy
                model preparation for budget estimates and financial statement re-estimates.

2.      Personal Property and Equipment

       In our FY 1999 management letter, we reported deficiencies in the safeguarding of computer
equipment and recommended that the CFO:

        •       Develop written procedures and policies for tracking and disposing of computer
                equipment.

        •       Establish a centralized inventory database.

        •       Perform periodic inventories of computer equipment and compare results to the
                inventory database.
        •       Establish disposal procedures for computer equipment that include sanitizing data
                remaining on hard drives of surplus equipment.

        SBA responded by stating:

        •       It has an inventory control system, the Fixed Asset Accounting System (FAAS), that
                safeguards computer equipment against material loss.

        •       The Office of the Chief Information Officer (OCIO) conducts inventories of computer
                equipment several times a year.

        •       Office information technology personnel also maintain inventories of their computer
                equipment.

        •       SBA will implement improvements to its current process, such as an asset tracking
                system possibly using bar codes.

        •       SBA will develop procedures for disposal of computer equipment that sanitize data on
                hard drives for obsolete equipment.

      In following-up on our recommendations and SBA’s response, we identified two related issues in
FY 2000 that apply to all personal property and equipment, including computer equipment.

        Specifically, we found that SBA field offices do not consistently conduct annual physical
inventories of personal property and equipment. In addition, SBA’s property accountability system,
FAAS, does not fully meet the needs of all field offices. As a result, much of the information the system
contains is duplicated in ad-hoc systems or is not being used at all.

        For example, personnel at one Disaster Area Office (DAO) informed us that FAAS could not
provide the information it needs when establishing disaster site offices. In response, it had developed its
own system to meet its unique needs. Thus, much of the computer property had two property labels
attached—one for FAAS and one for the ad-hoc system.

        Field offices are required to maintain property records on FAAS and conduct annual physical
inventories of that property (SBA’s standard operating procedure, SOP 00 13 4). Agencies also must
establish physical control to secure and safeguard vulnerable assets, and such assets should be
periodically counted and compared to control records (General Accounting Office’s Standards for
Internal Control in the Federal Government).

            SBA’s field offices do not always conduct inventories and may maintain inadequate or
duplicate records in some locations. Thus, decisions about property may be made with inadequate or
incorrect information, resulting in either excess or insufficient property and equipment.

           We recommend that the Acting Assistant Administrator for Administration in coordination
with the CFO and CIO:

        •       Notify all field offices of the need for and importance of conducting annual physical
                inventories.
        •       Evaluate the adequacy of the FAAS to meet field office needs, and modify the system as
                appropriate.

3. Expired Appropriations

        SBA included FYs 1994 and 1995 funds in its reported Fund Balance with Treasury balance on
the FY 2000 financial statements.

        An appropriation is to be canceled 5 years from its appropriation period [Office of Management
and Budget (OMB) Circular No. A-34, Instructions on Budget Execution]. Thus, SBA should not have
included appropriations for these years in its FY 2000 financial statements.

        Also, an entity’s Fund Balance with Treasury is to be reduced by cancellation of expired
appropriations (Statement of Federal Financial Accounting Standards, SFFAS, No. 1). Because SBA did
not cancel these appropriations, the Fund Balance with Treasury was overstated by $13.7 million. This
required an audit adjustment to correct the FY 2000 financial statements.

        We recommend that the CFO develop a checklist for preparing financial statements that would
include a review for expired appropriations and update the checklist annually to ensure that it reflects the
most recent federal regulations.

4. Foreclosed Property Records and Valuation

         Property that SBA acquires through enforcing payment under secured loans is referred to as
“collateral purchased” (COLPUR), or foreclosed property inventory. COLPUR-related transactions, such
as sales and purchases, should be recorded in SBA’s Liquidation/Litigation Tracking System (LLTS) and
Loan Accounting System (LAS) in a timely manner. Additionally, agencies are required to record
property acquired on loans approved before 1992 at cost; adjust for the lower of cost or net realizable
value; and carry any difference in a valuation allowance (SFFAS No. 3, paragraph 81). SFFAS No. 3
also requires property acquired on loans approved from 1992 forward to be valued at the net present
value of projected future cash flows associated with the property. Agencies also are required to maintain
comprehensive inventory records of all foreclosed property (OMB Circular A-129, Policies for Federal
Credit Programs and Non-Tax Receivables, Appendix A, Chapter III, Section A.3.d).

        We noted three sold COLPUR items not removed from LLTS and LAS as of September 30,
2000, even though sold prior to year-end. As a result, COLPUR was overstated. Also, we found a
property with a current net realizable value of $318,495 that was still valued at the full $450,000 note
balance, thereby overstating the value of COLPUR by another $131,505.

       We recommend that the CFO coordinate with the Office of Capital Access and the Office of
Field Operations to:

            •   Record COLPUR-related transactions in LLTS and LAS within one month from the
                dates the transactions occurred.

            •   Ensure that all field office liquidation staff receive training and guidance on
                requirements for valuing foreclosed property and entering complete and accurate data
                into LLTS and LAS.
            •   Periodically reconcile field office property documentation and LLTS and LAS entries to
                ensure that property is properly valued and accurately entered in LLTS and LAS.

5. Loan Accounting Records and Servicing

        SBA’s loan accounting system does not always reflect current borrower information. We mailed
288 loan confirmations to SBA borrowers as part of our FY 2000 financial statement audit. SBA
provided the addresses from LAS. Of the 288 confirmations sent, 22, or about 8 percent, were returned
with incorrect addresses. Confirmations with incorrect addresses were generally associated with non-
performing loans, which require substantially more servicing by SBA or the servicing bank than
performing loans. We identified one loan for which payment had not been received for 2 years; neither
the loan officer nor the servicing bank had performed servicing on the loan during the past 2 years and
could not obtain contact information for the borrower.
       Accurate and complete loan file information is critical to providing proper service to the debtor,
pursuing collection of delinquent debt, and, in the case of guaranteed loans, obtaining claim payment
(OMB Circular No. A-129).
       We recommend that the Associate Administrator, Office of Financial Assistance establish
procedures to periodically validate borrower information to ensure that addresses and other personal
information are accurate and current.

Management’s Response

            SBA management concurred with the findings in this letter and provided corrective actions
(see the attachment). In general, we think that these actions, when fully implemented, will adequately
address all findings.
                                             REPORT DISTRIBUTION


Recipient                                                                                                  No. of Copies

Associate Deputy Administrator for Management and Administration ....................1

Associate Deputy Administrator for Capital Access .................................................1

Associate Administrator for Field Operations ...........................................................1

Chief Information Officer ..........................................................................................1

General Counsel .........................................................................................................2

U.S. General Accounting Office ................................................................................1

Office of the Chief Financial Officer
Attention: Jeff Brown ...............................................................................................1
